Audit of NARA’s Preservation

          Program



OIG Audit Report No. 13-08




        July 9, 2013

                                                                             OIG Audit Report No. 13-08



Table of Contents


Executive Summary ........................................................................................ 3


Background ..................................................................................................... 5


Objectives, Scope, Methodology .................................................................... 8


Audit Results................................................................................................... 9


Appendix A – Preservation Budget Requests............................................... 23


Appendix B – Selecting the Risk Level in HMS For Textual, Still Picture,

and Cartographic Record .............................................................................. 24


Appendix C – Acronyms and Abbreviations................................................ 25


Appendix D – Management’s Response to the Report................................. 26


Appendix E – Report Distribution List......................................................... 27





                                                 2

                           National Archives and Records Administration
                                                                           OIG Audit Report No. 13-08


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of NARA’s Preservation Program to determine whether (1) the
Preservation Program material weakness identified seven years ago in the Evaluation of
NARA’s Preservation Program (OIG Audit Report 05-13, dated June 2005) audit still
existed and (2) program controls were adequate to meet the mission of preserving Federal
records.

Based on the deficiencies identified, the Preservation Program should remain a material
weakness. The noted deficiencies significantly affect NARA’s ability to fulfill its
mission of safeguarding and preserving essential and important records of our Federal
Government. Additionally, as a result of these deficiencies, records remain at risk of loss
and deterioration, thereby risking availability for access and use by future generations.

During this audit we identified the following deficiencies:
   •	 A comprehensive and cohesive strategy for addressing NARA’s Preservation
       Program weaknesses did not exist;
   •	 NARA is not maximizing the full benefits of risk assessments 1;
   •	 Resources continue to be inadequate to address NARA’s preservation needs; and
   •	 Some Archival Storage Facilities may not be in compliance with Standards. 2

Furthermore, NARA was unable to demonstrate a risk based approach was adequately
used to (1) make decisions, (2) design a preservation strategy, (3) assess the current
preservation environment, and (4) address the large backlog of records that require
preservation actions.

Since the 2005 OIG audit, management has made some improvements to the Preservation
Program. Specifically, (1) most recommendations from the audit report were
implemented and (2) a risk assessment planning tool to identify the most critical
preservation issues for NARA holdings was implemented. However, enough significant
management action has not been taken to reduce the material weakness.




1
    In FY 2013 the term risk assessment was changed to needs assessment.
2
     This deficiency is discussed in Audit Memorandum 13-10.
                                                 3
                           National Archives and Records Administration
                                                           OIG Audit Report No. 13-08


This report contains six recommendations which upon implementation will assist NARA
in its efforts to implement a risk based approach for managing the Preservation Program
weaknesses. While the agency is under budget constraints, the deficiencies and
recommendations outlined in the report cannot be overlooked. Failure to address and
implement changes could further impair NARA’s Preservation Program.




                                           4
                     National Archives and Records Administration
                                                                       OIG Audit Report No. 13-08


Background

Title 44 of the United States Code, Chapter 21, Section 2107, states the Archivist may
accept for deposit with the National Archives of the United States the records determined
to have sufficient historical or other value to warrant their continued preservation by the
United States Government. Section 2109 further states the Archivist shall provide for the
preservation, arrangement, repair and rehabilitation, duplication and reproduction
(including microcopy publication), description, and exhibition of records or other
documentary material transferred to him as may be needful or appropriate, including
preparation and publication of inventories, indexes, catalogs, and other finding aids or
guides to facilitate their use. Section 2114 provides the Archivist may make and preserve
motion-picture films, still pictures, and sound recordings pertaining to and illustrative of
the historical development of the United States Government and its activities, and
provide for preparing, editing, titling, scoring, processing, duplicating, reproducing,
exhibiting, and releasing for non-profit educational purposes, motion-picture films, still
pictures, and sound recordings in his custody.

Preservation encompasses the activities which prolong the usable life of archival records.
Preservation activities are designed to minimize the physical and chemical deterioration
of records and to prevent the loss of informational content. The preservation staff at
NARA works together with the archivists to preserve the permanently valuable records of
the Federal Government. Successful preservation efforts are part of the fulfillment of the
agency's mission to “ensure continuing access to the essential documentation of the rights
of American citizens and the actions of their government.”

There are several offices responsible for ensuring preservation of records, including
Research Services - Preservation Programs Division (RX), Research Services – Access
Coordination Team for Archival Operations, Office of Innovation - Digitization Services
Branch 3 (VIS), and Legislative Archives, Presidential Libraries, and Museum Services
(L). The goal of RX is to ensure the records of our government are appropriately
preserved so they will be available for use. RX works with staff across NARA to support
and further preservation. The Division serves as a resource and offers guidance on the
wide range of media in NARA’s holdings, from paper and electronic records to artifacts
and special media. RX strives to monitor and track risks threatening records in all
formats; prioritize and implement preservation actions; specify and monitor
environmental conditions in storage, processing, and exhibit spaces; specify and evaluate

3
 On October 1, 2012 the Office of Innovation was established. As a result, Information Services ­
Digitization Services Branch (IDS) became Office of Innovation - Digitization Services Branch (VIS).
                                               5
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 13-08


stable housings to hold and protect records; and ensure NARA facilities are prepared for
record emergencies. RX includes the Conservation Division (RXC) and the St. Louis
Preservation Division (RXS). RXC assesses the condition of records that come to NARA
and stabilize and treat the documents to prepare them for digitization, exhibition, and use
by researchers. They also make custom housings for large or fragile records, and teach
holdings maintenance and records handling procedures. RXS cares for military and
civilian records at the National Personnel Records Center (NPRC), including assessing
the condition for each request for burned records from the 6.5 million that survived the
1973 fire. 4

The Access Coordination Team for Archival Operations collaborates with RX to
safeguard, identify, and mitigate risks to records to ensure their preservation for Archival
Operations throughout the country. VIS provides agency-wide laboratory services and
technical expertise in order to facilitate preservation and access to the content of Federal
Records in NARA’s custody. VIS includes preservation labs for audio, video, motion
picture, and photographic imaging, microfilm, and textual records. The Presidential
Libraries inspects records and other historical materials to determine the state of their
preservation; identifies those requiring preservation and repair or reproduction;
determines the appropriate treatment; and carries out appropriate measures on site or
arranges for appropriate treatment by another NARA unit, or by contract.

Prior OIG Report

In 2005 the OIG issued an audit report titled, Evaluation of NARA’s Preservation
Program (OIG Audit Report No. 05-13, dated June 2005). In our opinion the
deficiencies identified in the 2005 audit represented a material weakness affecting
NARA’s ability to carry out its mission of providing access to essential evidence 5. The
OIG report identified five deficiencies:
    •	 Items needing preservation had not been identified;
    •	 Budget and staffing was inadequate to address preservation needs in a timely
        manner;
    •	 Criteria for assessing preservation needs were not consistently applied;
    •	 Archival storage facilities were not in compliance with storage standards; and
    •	 Preservation performance measurement data was incorrect.

4
  In 1973 a disastrous fire at NPRC destroyed approximately 16-18 million Official Military Personnel
Files. No duplicate copies of these records were ever maintained, nor were microfilm copies produced. No
indexes were created prior to the fire, and millions of documents had been lent to the Department of
Veterans Affairs before the fire occurred. Therefore, a complete listing of the records that were lost is not
available.
5
  The agency’s mission in 2005 was “NARA ensures, for the Citizen and the Public Servant, for the
President and the Congress and the Courts, ready access to essential evidence.”
                                                6
                          National Archives and Records Administration
                                                             OIG Audit Report No. 13-08


Prior Government Accountability Office (GAO) Report

In 2010 GAO conducted a review of NARA’s effectiveness in overseeing the
governmentwide management of records, including its ability to preserve permanent
records. GAO’s report, National Archives and Records Administration: Oversight and
Management Improvements Initiated, but More Action Needed (GAO-11-15, dated
October 2011) identified NARA had a large and persistent backlog of records on paper
and other media needing preservation actions and faced challenges in preserving
permanent records largely because of their volume, the finite resources available, and the
technological challenges posed by electronic records. The report also stated while
NARA treated nearly 116,000 cubic feet of at-risk archival records in fiscal year 2009,
the percentage of backlog remained constant at about 65 percent, and holdings requiring
preservation grew from about 2.4 million cubic feet in 2008 to about 2.6 million cubic
feet in 2009.




                                           7
                     National Archives and Records Administration
                                                                          OIG Audit Report No. 13-08


Objectives, Scope, Methodology

The objectives of the audit were to determine if (1) recommendations in the
Evaluation of NARA’s Preservation Program (OIG Audit Report No. 05-13, dated
June 2005) were adequately implemented; and (2) program controls were adequate in
order to meet the mission of preserving Federal records. In order to accomplish our
objectives we:

    •	 Interviewed NARA’s now former Chief Operating Officer (COO); and
       representatives from Preservation Programs, Access Coordination Team for
       Archival Operations, Office of Presidential Libraries, and Digitization
       Services (IDS).
    •	 Reviewed the status of recommendations made in the Evaluation of NARA’s
       Preservation Program (OIG Audit Report No. 05-13).
    •	 Requested and reviewed documents compiled by the offices interviewed

       during the audit.

    •	 Reviewed target metrics related to preservation in the Performance 

       Management Reporting System (PMRS).


This audit was conducted in accordance with generally accepted government auditing
standards between March 2012 and January 2013 6. These standards require we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




6
  We conducted meetings to discuss the audit findings with the Director of RX and the Executive for
Research Services in December 2012 and January 2013, respectively. In April 2013 we held an exit
meeting with all of the offices to discuss the audit findings and recommendations included in this audit
report.

The issuance of this audit was delayed due to other competing priorities within the OIG.
                                                8
                          National Archives and Records Administration
                                                               OIG Audit Report No. 13-08


Audit Results


1. A comprehensive and cohesive strategy for addressing
   NARA’s Preservation Program weaknesses did not exist.

Our review revealed there is no clearly defined strategic direction for NARA’s
Preservation Program. Specifically, (1) management has not fully implemented a
cohesive preservation strategy, making it difficult to manage the wealth of existing
preservation information that can be leveraged to further inform decision making and (2)
no office has been delegated the authority to control preservation and make critical
decisions addressing preservation agency wide. This condition exists because the agency
has not developed an overall preservation strategy and preservation authority is
segmented throughout the agency. Without a defined strategic direction for the
Preservation Program, the agency is unable to truly articulate and address the extent of
the agency’s preservation problems, priorities, and required resources.

Preservation Program Strategy

We noted during the audit management has not developed (1) an overarching strategy for
the Preservation Program and (2) detailed plans identifying the immediate, mid-range,
and long-term steps, i.e. a roadmap showing the future path for the Program.
Additionally, while a risk assessment tool has been implemented, management has not
instituted a risk based approach to holistically assess the agency’s preservation needs and
design its preservation plan. An overarching strategy and roadmap provides a more
effective framework for implementing preservation activities and better ensures such
activities will lead to progress in preservation. Further, it ensures offices responsible for
preservation are held accountable for making improvement in preservation.

We also noted there was ongoing uncertainty between the Management Control
Oversight Committee (MCOC) and RX regarding the direction of NARA’s Preservation
Program. The MCOC believes the Preservation Program should be concentrating on the
records at imminent risk of loss for FY 2013. RX differs, and believes the focus should
be broader and not just focused on the records at imminent risk of loss. Although two
approaches have been outlined by RX and the MCOC, key elements such as milestones,
performance measures, cost, resources, roles, and responsibilities have not been
established or linked to either of the approaches.



                                            9
                      National Archives and Records Administration
                                                               OIG Audit Report No. 13-08


We inquired with the Director of RX about the strategy for NARA’s Preservation
Program and were directed to a November 2010 document created by RX titled
“Preservation for One NARA.” The document outlines RX’s perspective as to four
preservation strategies NARA will use to preserve holdings as a transformed agency.
The following strategies are listed in the document:

   •	   Accountability – ensure accountability for preservation of the holdings;
   •	   Prevention – prevent damage and loss to holdings by managing risks;
   •	   Remediation – remediate damage to holdings to permit access; and
   •	   Leadership – provide leadership and guidance for the creation of records in
        formats that will ensure their preservation.

Based on the OIG’s review the “Preservation for One NARA” is not a strategy, but rather
a document broadly discussing topics related to preservation and how they will be
addressed at NARA. It does not outline specific steps for the Preservation Program,
including how the agency will reduce the current material weakness or address the
existing backlog.

Although RX referred the OIG to the “Preservation for One NARA” document for the
Preservation strategy, the MCOC in 2012 conveyed a different message. In February
2012 the now former COO requested (1) the preservation subject matter experts start
back at square one and completely reassess and potentially rescope and redefine the
Preservation Program material weaknesses and (2) development of a high level
preservation strategy that could be succinctly conveyed. Then in September 2012, the
MCOC decided preservation was to maintain a material weakness for FY 2013 and
adjusted to also focus on records at imminent risk of loss. Specifically, Management’s
Year End Summary stated:

        “The more important and immediate preservation challenge is a proportionately
        small part of our holdings that are nearly unusable or could be lost if not treated in
        the next decade. Some of these textual holdings, estimated at about 150,000 cubic
        feet, that need laboratory conservation treatment, custom housing, digitization, or
        a combination of these three actions to allow safe use by researchers. In addition,
        there are an estimated 60,000 cubic feet of non-textual audio, video, still photo,
        motion picture, and cartographic holdings, many of which are at risk of media
        deterioration or obsolescence.”




                                           10
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-08


We inquired with the Director of RX about the MCOC’s approach for the Preservation
Program. The Director indicated she was not aware of the new direction. At a later
meeting, she stated while she did not disagree with the new direction, it will not stop
other work within the Preservation Program as there are other strategies that have to be
considered. Although management has provided an approach for the Preservation
Program for FY 2013, it appears RX is reluctant to focus on it and this could lead to the
delay in preserving the records management indicated are at imminent risk of loss.

Authority over Preservation Program

We noted during our review preservation activities existed in many offices across NARA,
but no one individual or office was delegated authority for preservation activities agency
wide. Currently, RX, Access Coordination Team for Archival Operations, VIS, and L
have authority over preservation activities within their offices. Although the offices work
together with RX on deciding priorities, each office controls its own preservation
activities, resources, and budget.

NARA 101, NARA Organization and Delegation of Authority, does not provide RX with
this authority. According to NARA 101, NARA Organization and Delegation of
Authority, RX “in collaboration with units across NARA ensures the preservation of
holdings of all media types, develops preservation approaches and solutions that are
technically sound, practical, and affordable for NARA program implementation, and
formulates national preservation policies with the input of the Access Coordination Team
and other NARA units.” According to RX’s Director, archival and preservation needs for
the agency need to be decided collectively, but no NARA-wide preservation priorities
had been identified by the offices involved in preservation. The Director of RX indicated
they do not control the other offices and cannot require a unit outside of their unit to
perform any preservation activities. She indicated there is a need for a central point of
authority for the Preservation Program.

In absence of some type of authority between RX and the other personnel in offices
performing preservation activities, RX can only (1) only request resources for areas that
are under its authority and (2) provide guidance in the hopes of achieving future
preservation strategies, including reducing the current backlog across the agency. The
lack of an office with overarching authority (1) does not allow the Preservation Program
to be managed strategically and effectively across the agency and (2) impacts NARA’s
ability to properly make uniform preservation decisions.




                                          11
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-08


Recommendation 1

The Archivist should ensure:

   a)	 An overarching preservation strategy is developed. The strategy should include
       milestones, performance measures, cost and resources, roles and responsibilities
       and a roadmap detailing the agency’s immediate, mid-range, and long-term steps
       for the Preservation Program. Additionally, a risk based approach to holistically
       assess the agency’s preservation needs and design the agency’s preservation plan
       should be implemented.
   b)	 An analysis is conducted of the organizational structure and responsibilities of
       each office involved in preservation. This should include a determination whether
       the preservation strategy can be effectively implemented with a decentralized
       structure, or if one NARA office should have authority over the entire
       Preservation Program.

Management Response

Management concurred with the recommendation.

Recommendation 2

The Chief Innovation Officer and Executives for Research Services and Legislative
Archives, Presidential Libraries and Museum Services should ensure comprehensive
preservation policies and procedures for each of their organizations are developed and/or
updated.

Management Response

Management concurred with the recommendation.




                                          12
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 13-08


2. Resources are inadequate to address preservation needs.

Although additional resources have been requested through the budget process, NARA
continues to lack the resources to meet the preservation requirements of the agency.
Specifically, NARA continues to have a large and persistent backlog 7 of records
requiring preservation actions and lacks dedicated resources to address those actions.
This condition exists because while additional resources have been requested the full
extent of required resources have not been appropriately communicated to internal nor
external stakeholders. Admin 201, Chapter 5, Budget, states NARA program offices
develop budget estimates and narrative justifications, including workload estimates
displayed in terms of units, FTEs and dollars for future years. Thus the Preservation
Program continues to be underfunded, understaffed, and unable to address the volume of
records that require appropriate preservation treatment.

Funding threatens NARA’s ability to adequately preserve federal records

Consistent with the OIG’s prior report, the Director of RX communicated more resources
are needed for the Preservation Program. While specific resources were not identified,
the Director indicated there is a need for people, archival, and building resources. The
Director of RX also stated Preservation Program resources, priorities, and initiatives had
been identified and acknowledged by the agency, but additional funding had not been
received because of other agency priorities. The OIG requested copies of RX’s budget
submissions to identify whether requests were made for additional funding. Based upon
our review, additional funding requests were made along with detailed narrative
justifications for why the funding was needed (see budget information in Appendix A).
Without an overarching strategy, NARA cannot properly identify the resources needed,
prepare an accurate funding request for those resources, and realistically devise a plan to
control the backlog.

NARA’s preservation backlog

One of the strategic goals in NARA’s 2006-2016 Strategic Plan (Revised 2009) is to
preserve and process records to ensure access by the public as soon as legally possible.
In order to measure NARA’s success for this goal, a long-range performance target was
established which states “by 2016, less than 50 percent of archival holdings require
preservation action.” NARA uses the percent of archival holdings that require
preservation action target metric to measure the backlog or the extent to which NARA’s
non-electronic archival holdings are at risk and the extent of preservation actions taken.


7
    In February 2013 the term backlog was changed to holdings needing preservation action.
                                                13
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 13-08


Based on our review of the target metric and discussions with management, the agency
(1) has not identified the total universe of records (textual and non-textual) that require
preservation actions, (2) faces difficulty meeting the 2016 performance target as there
continues to be a large number of records that need preservation actions, (3) is still
relying on outdated information to measure the preservation backlog, and (4) has a
significant backlog of non-textual records that need immediate preservation.

During a meeting with the Director of RX, we asked if the universe of records that
require preservation actions had been identified by the agency. The Director did not
agree that the agency should identify everything which needed preservation actions. The
Director stated there is already more than enough preservation work identified than the
resources available and RX has solid knowledge of the scope and scale of the agency’s
preservation needs. As a result, management may be unaware of records at risk and
which require preservation.

During the audit we also reviewed the calculation for the target metric. The backlog at
the end of FY 2011 and FY 2012 was 62% and 61%, respectively (see Table 1). Between
FY 2006 and FY 2012 8, the agency on average decreased the percent of holdings at risk
by less than one percent per year. When we interviewed the Director of RX about the
backlog, she indicated (1) there is too much concentration on the term backlog and the
impression in NARA the records will fall apart tomorrow, which she stated was
inaccurate, (2) the backlog number is not getting more resources for the preservation
program and the concentration on the backlog is taking away from what is important, (3)
additional resources would help to reduce the current backlog, and (4) the agency needs
to be realistic about what can be done and focusing on the term backlog is taking the
agency down the wrong path. Based on the amount of records treated in FY 2012, even
if no other records were identified as needing preservation, it would take approximately
28 years 9 to complete the current preservation work identified. However, even this is too
optimistic of a scenario, as every year more records are identified as needing
preservation, or are accessioned in state needing preservation work. This is evidenced by
the fact the actual size of the backlog has grown over the last five fiscal years. With the
current backlog, budget restraints, and additional records processed each year, there is a
risk NARA will continue to be unable to manage the volume of records needing
preservation unless resources become available to reduce the backlog in a timely manner.

8
  At the end of FY 2012, the percent of holdings at risk was reported in PMRS as 61%. At the end of
fieldwork for the audit, RX was working on applying the current results of the risk assessments to the field
archives holdings as a whole. RX believed the proposed changes would result in a reduction in the overall
percentage of holdings at risk. The Washington Area Archives will continue to rely on the data from the
surveys instead of completed results of risk assessments.
9
  Twenty-eight years is calculated by dividing the FY 2012 start of the backlog (2,734,244 cubic feet) by
the cubic footage of preservation work completed in FY 2011 (97,905 cubic feet)
                                               14
                          National Archives and Records Administration
                                                                    OIG Audit Report No. 13-08



Table 1: Preservation Backlog Calculation

                       FY 2006     FY 2007     FY 2008     FY 2009      FY 2010    FY 2011     FY 2012
Archival Holdings
                       3,296,468   3,346,112   3,728,601   3,937,316   4,042,925   4,248,176   4,482,330
    (cubic feet)
   Preservation
                       2,182,353   2,163,371   2,424,550   2,571,395   2,578,142   2,636,339   2,734,244
Backlog (cubic feet)
 % of Holdings at
                        66.20%      64.65%      65.02%      65.30%      63.76%      62.05%       61%
       Risk
       % +/­             N/A        -1.55%      0.37%       0.28%       -1.54%      -1.71%      -1.06%


We also noted the agency is still relying on outdated information to measure the
preservation backlog. In 2004 the agency conducted preservation surveys of records held
at the Washington Area Archives, National Personnel Records Center, and Regional
Archives. One of the goals of the surveys was to characterize the nature and extent of the
preservation needs of textual holdings. As a result of the surveys a starting point for the
backlog calculation was defined. Although the agency now uses risk assessments to
identify preservation actions, the results from the surveys are still the basis to measure the
preservation backlog for the Washington Area Archives. Currently, there is more data
available from the completed risk assessments, than the surveys conducted over eight
years ago. Without the use of more current data on the universe of records requiring
preservation actions (i.e., risk assessments, surveys, etc.), the agency faces the risk of a
backlog far greater than expected.

Based on discussion with the former Director of IDS and review of documentation, there
is a significant amount of non-textual records that require preservation. Additionally,
there are technical limitations and infrastructure constraints that stand in the way of
preserving non-textual records and making them accessible to the public. At the end of
FY 2012, management identified an estimated 60,000 cubic feet of non-textual audio,
video, still photo, motion picture, and cartographic holdings records that are at risk of
media deterioration or obsolescence. It is possible there are more non-textual records
needing preservation than the estimated 60,000. According to the former Director of
IDS, the universe of non-textual records requiring preservation is unknown and they need
to be physically observed and assessed to determine preservation needs. Without this
knowledge it is impossible to avoid surprises, plan, and prioritize work for non-textual
records.




                                             15
                        National Archives and Records Administration
                                                            OIG Audit Report No. 13-08


Recommendation 3

The Archivist should ensure:

   a)	 The Chief Innovation Officer and Executives for Research Services and
       Legislative Archives, Presidential Libraries and Museum Services completely
       identify the resources necessary to adequately accomplish NARA’s preservation
       mission. Specifically, a comprehensive budget request for the Preservation
       Program outlining all resources (budget, staffing, infrastructure, etc.) should be
       developed along with the potential effects on the Program if the funding is not
       received.
   b)	 The Chief Innovation Officer and Executives for Research Services and
       Legislative Archives, Presidential Libraries and Museum Services develop a plan
       to identify the complete universe of textual and non-textual records that require
       preservation.

Management Response

Management concurred with the recommendation.

Recommendation 4

The Executive for Research Services should ensure a detailed analysis is performed and
communicated about the risks versus the benefits associated with not using the existing
risk assessment data to calculate the backlog for the Washington Area Archives. If it is
decided the existing risk assessment data will not be used, a determination should be
made regarding whether a new survey is warranted to provide a current assessment of the
agency’s preservation needs.

Management Response

Management concurred with the recommendation.




                                          16
                     National Archives and Records Administration
                                                               OIG Audit Report No. 13-08


3. NARA is not maximizing the full benefits of risk
   assessments.

The risk assessment is a planning tool that should enable NARA to address the most
critical preservation issues by collecting information on the use, preservation problems,
and needed preservation actions of NARA holdings. While NARA has implemented a
more robust risk assessment process for identifying preservation actions needed, the
agency lacks the ability to fully integrate and transform this data into meaningful
information to more fully define and improve decision making. Specifically, risk
assessments have not been completed for all archival holdings or been used to develop
work plans, preservation strategies, and performance metrics for management analysis.
Further, when completing risk assessments, the criterion used for the records estimated
level of use is not considered reliable, and all of the risk assessments are not recorded in
HMS. This condition exists because management has not put a process in place to
effectively utilize the information from the risk assessments. Failure to capitalize on the
full benefits of the risk assessments does not allow management the opportunity to make
informed decisions on short-term and long-term strategies, or make investments in
technologies aligned with the agency’s most critical preservation needs.

In our last audit report, Evaluation of NARA’s Preservation Program (OIG Audit Report
05-13), we reported NARA’s methodology to identify textual at-risk records across the
agency was not adequate. We noted the methodology at that time did not ensure
assessment of the entire inventory and was based on inconsistently applied and in some
cases outdated criteria. One of our recommendations was for NARA to refine the
methodology and employ resources to survey, identify, document, and rank NARA
records needing preservation. In response to our recommendation NARA developed an
agency-wide program of risk assessment. The risk assessments are now completed in the
At-Risk WebLog and HMS (Holdings Management System), an integrated technology
platform designed to support the physical management of permanent, hard-copy archival
records in the custody of NARA. Risk assessments are completed during accessioning,
processing, anytime a preservation need is discovered, and when a preservation action is
completed and a risk assessment does not exist.




                                           17
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-08


The risk assessment is used to rank the records into risk levels of (1) Immediate Risk of
Loss, (2) High Risk, (3) Medium Risk, (4) Low Risk, and (5) No Preservation Action
Needed at this Time. The factors used to determine the risk levels include:

   •	 current and anticipated use;
   •	 inadequate housing, which leads to physical damage and intrusion of dust;
   •	 condition problems such as tape, folds, and broken parts, which impede access
      and safe handling;
   •	 continued deterioration and inherent instability, which leads to the loss of

      information, and requires cold storage, conservation treatment and / or

      reformatting; and

   •	 obsolescence of format and potential unavailability of playback equipment for
      machine readable holdings, which means some records may not be able to be
      played or copied.

(See Appendix B for guidance used when selecting the risk levels in HMS for textual,
still pictures, and cartographic records.)

Risk Assessments have not been completed for all holdings

Although the risk assessment tool was implemented, we noted risk assessments have not
been completed for a significant amount of archival holdings. In May 2012, there were
4,383,055 cubic feet of archival holdings. Risk assessments had not been completed for
1,904,820 (71%) and 159,816 (12%) cubic feet of archival holdings of the Washington
Area Archives and field locations, respectively. Also, risk assessments had not been
completed for 186,087 (42%) of the Presidential Libraries artifacts. The Presidential
Libraries and Washington Area Archives had the highest percentage of holdings without
risk assessments, while the archival field locations (including NPRC) had completed risk
assessments for the majority of their archival holdings (See Table 2). According to RX,
there is no goal to have risk assessments completed for all archival holdings because:

   1.	 RX states there are not enough resources to perform outstanding risk assessments;
   2.	 RX values the quality of the data very highly;
   3.	 RX does not want to encourage staff to rush through risk assessments without
       examining some of the records;
   4.	 RX believes it does not benefit NARA holdings to identify all of the needs, but
       rather NARA should make progress on meeting those needs already identified;
       and
   5.	 RX states enough preservation actions have been identified for RX to document
       their work plans for years.

                                          18
                     National Archives and Records Administration
                                                                   OIG Audit Report No. 13-08



While it may not be reasonable to complete risk assessments for all archival holdings, the
current percentage of holdings without risk assessments is a significant risk as there
maybe records where the agency does not know the risk rating, but critical preservation
problems exist.

Table 2: Percentage of risk assessments completed (as of May 2012)

                                     Archival Holdings   Archival Holdings with      % of Risk
                                        (cubic feet)        Completed Risk          Assessments
                                                         Assessments (cubic feet)   Completed
Washington Area Archives                 2,681,288              776,468                 29%
Textual, Center for Legislative
Archives, Non-textual
Presidential Libraries - Artifacts        445,265                259,178               58%
Archival Field Locations                 1,369,716              1,209,900              88%

Preservation work plans and strategies

During our review we noted once the risk assessments are completed, they were not
relied on by the agency to help prioritize projects and guide preservation strategies and
decisions. We were informed of a meeting between the former COO and the Director of
RX where the Director indicated the risk assessments were not relied on to develop work
plans. When questioned about this during the meeting, the Director responded she did
not trust the risk assessment work performed by staff in the field. This statement is a
contradiction to the work performed by RX as they were responsible for developing and
implementing the risk assessment guidance, and with training those completing the risk
assessments. Also, under the leadership of the Director, Preservation Reviews have been
performed to support local staff and Central office staff in identifying, prioritizing, and
addressing preservation needs. As a part of the reviews, risk assessments were repeated
by RX employees to validate the risk assessment data. According to RX, the Presidential
Libraries have filled out the risk assessments correctly with only minor changes needed.
Research Services risk assessments are less accurate because assessors are not expected
to look through every box. Accordingly, it is difficult to comprehend the statements
made by the Director. Significant time and resources have been dedicated by the
Director’s group to train employees and perform reviews of a process which was created
and implemented by her group. Further, significant resources have been used to develop
HMS for it to document items needing preservation and consistently apply criteria for
assessing preservation needs, among other needs of the agency. Unless the information
gathered by risk assessments is used in a meaningful way, these resources may have not
been put to good use.



                                                19
                           National Archives and Records Administration
                                                              OIG Audit Report No. 13-08


Performance metrics

We noted no additional performance metrics have been implemented to allow
management to monitor activity within the Preservation Program. RX identified new
metrics in FY 2012, but Performance and Accountability communicated the metrics were
not necessarily meaningful output or outcome measures. This is not the first time we
indicated management needed to develop additional metrics. During the 2005 audit, we
recommended management consider adding another performance measurement metric to
capture performance on medium and low-risk projects. Management concurred with the
recommendation. After the issuance of the audit report, management decided not to
define a new metric to capture performance on medium and low risk projects.
Management concluded (1) PMRS is not the appropriate place to track preservation work
done for each level of at-risk projects, (2) PMRS is a public metric and tracking three
levels for public reporting is simply too confusing for those not intimately involved in
preservation discussions, and (3) tracking preservation work on records originally
identified as medium or low risk is a more complex management task appropriate for
reporting on internal management processes. The completed preservation work by risk
level data is now available in HMS, but there is still no metric used to identify
preservation work completed by risk levels (see Table 3 which shows Holdings Received
Preservation Action by Risk Level for FY 2012).

Table 3: Holdings Received Preservation Action by Risk Level for FY 2012 (cubic feet)

                                  Archival Field
                 Archives I and
                                  Locations using   Non-textual at
   FY 2012       Archives II in                                         Total         %
                                  HMS as of June     Archives II
                     HMS
                                       2013
Immediate               31              31                -               62            -
High                  15,816          36,473              7             52,296        53%
Medium                18,351           2,811              1             21,163        21%
Low                   22,002           3,736              -             25,738        26%
Total                 56,200          43,051              8             99,259


Additionally, there were no measurements to monitor archival holdings with risk
assessments completed by risk category within HMS and the At-Risk WebLog. The data
is available and the OIG was able to request and review it during the audit (see Table 4
which shows risk assessments completed by risk levels). The additional measurements
would allow management once again to make decisions and develop strategies related to
preservation. Without the metrics, NARA officials continue to review the Preservation
Program without critical and valuable information that would help them make more
informed decisions.


                                           20
                      National Archives and Records Administration
                                                               OIG Audit Report No. 13-08


Table 4: Cubic Feet Needing Action Broken Down by Risk Level from Risk Assessments
(as of May 2012)

                                 Archival Holdings with Risk
          Risk Level               Assessments Completed              % of Risk Level
                                         (cubic feet)
Immediate Risk of Loss                      8,039                            1%
High Risk                                  664,230                          62%
Medium Risk                                160,964                          15%
Low Risk                                   238,652                          22%

Record Usage

In the 2005 audit report, we noted different criteria existed to define record usage applied
as a basis to identify whether a record needed preservation treatment for the Washington
Area Archives, Presidential Libraries, and Regional Archives. We recommended NARA
determine and utilize a consistent usage criterion for all NARA records. As a result of
the recommendation, a consistent criterion was created and all archivists now use the
same criteria. Archivists now use the following three levels determining estimated level
of use:

    •   High Use – records are generally used at least 3 times per year
    •   Medium Use – records are generally used 1 or 2 times per year
    •   Low Use – records are generally used less than once per year

Although consistent criterion exists, the process for determining use is subjected to the
archivist’s judgment. During our interviews with personnel from the Archival Field
Locations, comments were made about how artificial and problematic the current process
is for the use data. Currently, there is no way to determine how often records are used as
there is no circulation modules implemented to track usage of archival holdings.
Therefore, the determination is based on an archivist’s judgment of how often the record
group is used or will be used. Until a mechanism to capture actual data about use is
implemented, archivists’ judgment will continue to be the source for this information.
Without the mechanism to capture actual data about use, there is the risk the criterion is
not being appropriately applied.

HMS and At-Risk WebLog

We noted at the end of FY 2012 Denver, St. Louis, Presidential Libraries, and Special
Media (Cartographic and Still Pictures) were still using the At-Risk WebLog and Non-
text Risk Assessment Database (Special Media only) to document risk assessments while
all other divisions were using HMS. Denver, St. Louis, and Special Media (Cartographic
and Still Pictures) are expected to transition to HMS in FY 2013. The Presidential
                                              21
                       National Archives and Records Administration
                                                            OIG Audit Report No. 13-08


Libraries indicated they will assess in the future if and when they will move to HMS.
HMS was implemented to combine in a single system the archival functionality that was
distributed across multiple systems (both manual and automated) throughout the agency.
It is inefficient for the agency to have two different systems to record the risk
assessments as current analyses are manually performed and subject to human error.
Additionally, future processes (e.g. circulation data) could be affected if the agency
continues to run two separate systems.

Recommendation 5

We recommend the Executive for Research Services should ensure:

   a)	 An analysis is performed to determine if additional risk assessments for the
       Washington Area Archives and Presidential Libraries, including older holdings,
       should be completed. Identify the risks for not completing the assessments.
   b) Additional measureable performance metrics are developed and implemented to
       track the progress within the Preservation Program.
   c) A cost benefit analysis for the HMS Circulation Module is completed. Request
       required resources if the cost benefit analysis identifies benefits to the agency.
   d) Denver, St. Louis, and Special Media (Cartographic and Still Pictures) implement
       HMS to record risk assessments.

Management Response

Management concurred with the recommendation.

Recommendation 6

The Executive for Legislative Archives, Presidential Libraries and Museum Services
should ensure an analysis is performed to identify whether HMS should be implemented
across the Libraries. If it is decided HMS will be implemented, a timeline should be
established. If it is decided HMS will not be implemented identify (1) how the existing
system will meet the agency’s preservation needs and (2) obstacles and risks for not
implementing HMS.

Management Response

Management concurred with the recommendation.




                                          22
                     National Archives and Records Administration
                                                                                                                                     OIG Audit Report No. 13-08




Appendix A – Preservation Budget Requests 10

 Fiscal       Budget        OMB         Funded     Name of Strategic
                                                                                    Narrative Justification Excerpts from Strategic Budget Initiative Requests
 Year         Request      Request                 Budget Initiative
                                                      Preserving       Due to fragility, unstable paper and inks, previously inadequate storage environments and/or extensive
             $5,965,318   $4,525,000
     2007                                 $0        NARA’s Textual     research use, many Federal textual records have become damaged and the information they contain is at
             (12 FTEs)    (12 FTEs)
                                                       Records         immediate risk of being lost.
                                                    Transition from    Without additional resources, we will not be able to transition our preservation reformatting workflows to
             $4,498,352   $4,500,000               Analog to Digital   digital technology, and therefore, we will not be able to prevent the loss of information due to the
     2008                                 $0
              (8 FTEs)     (8 FTEs)                 Reformatting of    deterioration of physical materials, due to the obsolescence of machine dependent formats (audio, video
                                                       Records         recordings, motion pictures), and due to the damage caused by the frequent handling of original records.
                                                                       NARA requires additional resources so it can succeed in its mission both to preserve the nation’s archival
             $4,570,000   $2,200,000                 Preserving        holdings and to provide access. Otherwise the citizens of the United States will lose information that
     2009                                 $0
             (18 FTEs)    (10 FTEs)                America’s Records   allows them to have a full and open understanding of the work of the Federal Government and its
                                                                       democratic processes, the work of our Presidents and the rights, entitlements and history of all citizens.
                                                                       NARA does not have sufficient resources to adequately protect and address the most critical needs of the
                                                                       ten billion pages of archival holdings, special media records and artifacts that document the history of our
                                                                       Government and our nation and that protect the rights of the citizens. Without the requested funding, the
                                                    Preserving and
             $2,179,334                                                citizens of the United States will lose access to information that allows them to have a full and open
     2010                    $0           $0          Digitizing
             (11 FTEs)                                                 understanding of the work of the Federal Government and its democratic processes, the work of our
                                                   America’s Records
                                                                       Presidents and the rights, entitlements and history of all citizens. Records on fragile and deteriorating
                                                                       formats and on rapidly obsolete formats are most vulnerable to loss. The funding will enable NARA to
                                                                       manage the resources fundamental to NARA’s mission.
             $2,602,977                              Digitization by   As a result of this initiative NARA will improve its efficiency in servings its constituents, further agency
     2011                    $0           $0
             (14 FTEs)                                  NARA           preservation goals and increase the number of records that can be stored off site.
                                                                       Additional resources are required to address the most critical preservation needs of the permanent federal
             $1,800,000                                Focus on        records located in NARA’s 30 archival and library facilities across the nation. The records that are at risk
     2012                    $0           $0
              (3 FTEs)                                Preservation     of significant deterioration include special media records, textual records and artifacts that document the
                                                                       history of our Government and our nation and that protect the rights of the citizens.


10
     This chart represents new funding requested only. RX’s base budget for FY 2007 – FY 2012 was $4,891,000.


                                                                         23
                                                    National Archives and Records Administration
                                                                        OIG Audit Report No. 13-08




         Appendix B – Selecting the Risk Level in HMS For
         Textual, Still Picture, and Cartographic Record


Does the Record Entry have:
•	 Wet, actively moldy or currently pest infested records-­
   call for conservation advice or intervention immediately
                              Or
•	 Machine readable records on obsolete formats, for which                        Risk Level:

   playback equipment is difficult to locate                    YES               Immediate Risk of Loss

                              Or
•	 Unstable media which will not benefit greatly from cold
   storage and which must be copied before additional
   information loss occurs
                              Or
•	 Records where the next use will likely result in loss of
   information?




                           NO


   Does the Record Entry require cool, cold, or below-         YES                Risk Level: High
   freezing storage and is not in such storage?



                          NO                                                  Risk Level is the Use Level.
                                                                                   High Use is High Risk
                                                                                   Medium Use is Medium Risk
    Does the Record Entry have needed or completed                                 Low Use is Low Risk
    preservation actions?                                     YES



                           NO


    Risk Level: No Preservation Action Now



                                                        24
                                   National Archives and Records Administration
                                                    OIG Audit Report No. 13-08




Appendix C – Acronyms and Abbreviations

COO     Chief Operating Officer
GAO     Government Accountability Office
HMS     Holdings Management System
IDS     Information Services – Digitization Services Branch
L       Legislative Archives, Presidential Libraries, and Museum Services
MCOC    Management Control Oversight Committee
NARA    National Archives and Records Administration
NPRC    National Personnel Records Center
OIG     Office of Inspector General
PMRS    Performance Measurement and Reporting System
RX      Preservation Programs Division
RXC     Conservation Division
RXS     St. Louis Preservation Division
VIS     Office of Innovation – Digitization Services Branch




                                   25
              National Archives and Records Administration
                                                                              OIG Audit Report No. 13-08 



Appendix D – Management’s Response to the Report





     L NATIONAL
      ARCHIVES


                                  JUN 2 7 2013
          Date:
          To:                 James Springs, Acting Inspector General
          From:               David S. Ferriero, Archivist of the United States
          Subject:            OIG Revised Draft Audit 13-08, Audit of NARA's Preservation Program




     Thank you for the opportunity to provide comments on this draft report. We appreciate
     your willingness to meet and clarify language in the report.

     We concur with the six recommendations in this audit.

     If you have any questions or need additional information on these comments, please
     contact Mary Drak by phone at 301-837-1668 or via email at mary.drak@nara.gov.




     David S. Ferriero
     Archivist of the United States




      NATIONAl ARC II IVES .wd
      RfCORO> ADMINISTRATION
        860 1 ADELPHI ROAD
     COLLEGf PARK. MD 2074(}60()1
           w ww. ar(hil'(J.gO\'




                                              26 

                         National Archives and Records Administration
                                                           OIG Audit Report No. 13-08


Appendix E – Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND)

Chief Operating Officer (C)

Chief Innovation Officer (I)

Executive for Legislative Archives, Presidential Libraries and Museum Services (L)

Executive for Research Services (R)

Director, Performance and Accountability (CP)

Management Control Liaison, Performance and Accountability (CP)





                                          27
                     National Archives and Records Administration
